No. 21-

IN THE

'upreme Court of the %biters iikateo
WILLIAM BEAUMONT HOSPITAL,

v.

Petitioner,

UNITED STATES OF AMERICA, EX REL.
DAVID L. FELTEN, M.D., PH.D.,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,858 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 20, 2021.

LMT
Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

